APPENDICES

APPENDIX, p. 1 of 51

APPENDIX A

APPENDIX, p. 2 of 51

Fil£D18 f'm •1511561JsDC~

S. AMANDA MARSHALL, OSB 9534 7
United States Attorney
GARY Y. SUSSMAN, OSB 87356
Assistant United States Attorney
1000 SW Third Avenue, Suite 600
Portland, Oregon 97204
Telephone: (503) 727-1000
Facsimile: (503) 727-1117
E-mail: gary.sussman@usdoj.gov

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
PORTLAND DIVISION

UNITED STATES OF AMERICA
No. 3:-15-CR-

/0 7.- S.I

v.
JASON ANDREW DUNLAP,

INFORMATION
[18 U.S.C. §§ 2251(a) and (e)]

Defendant.

Forfeiture Allegation

THE UNITED STATES ATTORNEY ALLEGES:
Count One
Production of Child Pornography
18 U.S.C. §§ 2251(a) and (e)
Beginning sometime on or after January 1, 2012, and continuing to on or about July
18,2014, in Yamhill County, in the District of Oregon and elsewhere, defendant JASON
ANDREW DUNLAP, having previously been convicted of Encouraging Child Sexual
Abuse in the Second Degree, in the Circuit Court of the State of Oregon for Yamhill
County, in case number CR030520, an offense involving the possession of child
pornography, knowingly employed, used, persuaded, induced, enticed, or coerced minors

APPENDIX, p. 3 of 51

.

.~

.
identified herein as "PD, " "HR, " "KH," and "KK, "to engage in sexually explicit conduct
for the purpose of producing visual depictions of that conduct, knowing or having reason to
know that those visual depictions would be transported or transmitted using any means or
facility of interstate or foreign commerce or in or affecting interstate or foreign commerce;
said visual depictions having been produced using materials that have been mailed, shipped,
or transported in or affecting interstate or foreign commerce by any means, including by
computer; and having actually been transported or transmitted using any means or facility of
interstate or foreign commerce or in or affecting interstate or foreign commerce.
All in violation ofTitle 18, United States Code, Sections 2251(a) and (e).
Criminal Forfeiture Allegation

Upon conviction of the offense described above in Count One of this information,
defendant JASON ANDREW DUNLAP shall forfeit to the United States pursuant to Title
18, United States Code, Section 2253, any and all matter which contains visual depictions
produced, transported, or shipped in violation thereof, and any and all property used or
intended to be used in any manner or part to commit or to promote the commission of the
aforementioned violations.
DATED this 18th day ofMarch 2015.
Respectfully submitted,
S. AMANDA MARSHALL

MAN, OSB 87356
As · tant United States Attorney

INFORMATION

PAGE2

APPENDIX, p. 4 of 51

APPENDIX B

APPENDIX, p. 5 of 51

United States v. Dunlap | Cases | Westlaw

1 of 3

https://1.next.westlaw.com/Document/Ia25fec608b9a11e88d669565240...

APPENDIX, p. 6 of 51

9/16/2020, 8:54 AM

United States v. Dunlap | Cases | Westlaw

2 of 3

https://1.next.westlaw.com/Document/Ia25fec608b9a11e88d669565240...

APPENDIX, p. 7 of 51

9/16/2020, 8:54 AM

United States v. Dunlap | Cases | Westlaw

3 of 3

https://1.next.westlaw.com/Document/Ia25fec608b9a11e88d669565240...

APPENDIX, p. 8 of 51

9/16/2020, 8:54 AM

APPENDIX C

APPENDIX, p. 9 of 51

AO 245B

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 5/20 16)
Sheet I

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
UNITED STATES OF AMERICA
Plaintiff,

JUDGMENT IN A CRIMINAL CASE
Case No.: 3:15-CR-00107-Sl-1

v.

USM Number: 76421-065

JASON ANDREW DUNLAP

Thomas J. Hester,
Defendant's Attorney

Defendant.
Gary Y. Sussman,
Assistant U.S. Attorney

THE DEFENDANT:
~pleaded guilty to count(s) 1 of the Information.

The defendant is adjudicated guilty of the following offense(s):

Title, Section & Natu re of Offense

Date Offense Concluded

18U.S.C.§ § 2251 (a) and (e) - Production of Child Pornography

Beginning on or about 1/1/2012 and
continuing until 7/18/2014

Count Number

The defendant is sentenced as provided in pages 2 through 8 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.
□ The

defendant has been found not guilty on count(s) and is discharged as to such count(s).

□ Count(s)

are dismissed on the motion of the United States.

~The defendant shall pay a special assessment of $100 for Count(s) 1 of the Information payable immediately to the Clerk of the
U.S. District Court. (See also the Criminal Monetary Penalties Sheet.)
IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant shall notify the court and United States Attorney of any material change in the defendant's
economic circumstances.

Michael H. Simon, U. S. District Judge
Name and Title of Judicial Officer
January 29, 2019
Date

APPENDIX, p. 10 of 51

AO 245B

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 5/2016)
Sheet 2 - Im risonment
DEFENDANT: JASON ANDREW DUNLAP
CASE NUMBER: 3:15-CR-00107-Sl-1

Judgment-Page 2 of8

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a term of THREE
HUNDRED SIXTY (360) MONTHS.
~The court makes the following recommendations to the Bureau of Prisons:
1.

That the defendant be incarcerated at USP Marion where he is currently serving his sentence

~

The defendant is remanded to the custody of the United States Marshal.

□

The defendant shall surrender to the custody of the United States Marshal for this district:
□

□
□

m___ on _ _ _ _ _ __
as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D before
□

on - - - - - - -

as notified by the United States Marshal.

D as notified by the Probation or Pretrial Services Office.
The Bureau of Prisons will determine the amount of prior custody that may be credited towards the service of sentence as
authorized by Title 18 USC §3585(b) and the policies of the Bureau of Prisons.

RETURN
I have executed this judgment as follows:

Defendant delivered on _ _ _ _ _ _ _ _ _ _ _ _ _ _ to _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __
at _ _ _ _ _ _ _ _ _ _ _ _ _ _ __, with a certified copy of this judgment.

UNITED ST ATES MARSHAL
By:
DEPUTY UNITED STATES MARSHAL

APPENDIX, p. 11 of 51

AO 245B

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 5/2016)
Sheet 3 - Su ervised Release
DEFENDANT: JASON ANDREW DUNLAP
CASE NUMBER: 3:15-CR-00107-SI-l

Judgment-Page 3 of8

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of LIFE.
The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall submit to one drug test within 15
days ofrelease from imprisonment and at least two periodic drug tests thereafter.
□ The above drug testing condition is suspended, based on the court's determination that the defendant poses a low risk of future
substance abuse. (Check, if applicable.)

If this judgment imposes a fine or restitution obligation, it shall be a condition of supervised release that the defendant pay any
such fine or restitution that remains unpaid at the commencement of the term of supervised release in accordance with the
Schedule of Payments set forth in the Criminal Monetary Penalties section of this judgment.

The defendant shall comply with the Standard Conditions of Supervised Release that have been adopted by this court as set forth
in this judgment. The defendant shall also comply with the Special Conditions of Supervision as set forth below and any
additional conditions attached to this judgment.

SPECIAL CONDITIONS OF SUPERVISION

1.

The defendant shall cooperate in the collection of DNA as directed by the probation officer, ifrequired by law.

2.

The defendant shall pay full restitution to the victim identified in the presentence report in the amount of $9,105.85 to be paid
to the victims identified in the presentence report. If there is any unpaid balance at the time of the defendant's release from
custody, it shall be paid at the maximum installment possible and not less than $100 per month.

3.

For as long as any restitution is still owing, the defendant is prohibited from incurring new credit charges or opening additional
lines of credit without the approval of the probation officer. This condition shall be deleted as soon as restitution is paid in
full.

4.

For as long as any restitution is still owing, the defendant shall authorize release to the U.S. Probation Officer any and all
financial information by execution of a release of financial information form, or by any other appropriate means, as directed
by the probation officer. This condition shall be deleted as soon as restitution is paid in full.

5.

The defendant's employment shall be subject to approval by the probation officer.

6.

The defendant shall disclose all assets and liabilities to the probation officer. Defendant shall not transfer, sell, give away, or
otherwise convey any asset with a fair market value in excess of$500 without approval of the probation officer. This condition
shall be deleted as soon as restitution is paid in full.

7.

The defendant shall not make application for any loan, enter into any credit arrangement, or enter into any residential or
business lease agreement without approval of the probation officer. This condition shall be deleted as soon as restitution is
paid in full.

8.

The defendant shall participate in a sex offender assessment and treatment program, as directed by the probation officer. The
defendant shall abide by all rules and requirements of such program. This assessment and treatment program may include the
use of the polygraph to assist in case planning and case monitoring.

9.

The sex offender treatment program may include the use of a penile plethysmograph to assist in case planning and case
monitoring.

APPENDIX, p. 12 of 51

AO 245B

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 5/2016)
Sheet 3 - Su ervised Release
DEFENDANT: JASON ANDREW DUNLAP
CASE NUMBER: 3:15-CR-00107-SI-1

Judgment-Page 4 of8

10.

The defendant shall not view, purchase, or possess (1) any materials including visual depictions of minors under the age of
18 engaged in sexually explicit conduct, as defined in 18 U.S.C. § 2256(2); or (2) any materials depicting sexually explicit
conduct involving adults, including depictions of actual or simulated sexual intercourse (including genital-genital, oralgenital, anal-genital, or oral-anal, whether between persons of the same or opposite sex), bestiality, masturbation, sadistic or
masochistic abuse, or other depictions of explicit adult sexual conduct. The defendant is prohibited from patronizing any place
where such material or entertainment is available.

11.

The defendant shall not view, purchase, or possess any materials, including visual depictions of nudity and sexually explicit
conduct, as defined at 18 USC§ 2256(2) and (5).

12.

The defendant is prohibited from being present within 100 feet of places where minor children under the age of 18 congregate,
such as playgrounds and schools, unless approved by the probation officer.

13.

The defendant is prohibited from residing within 100 yards of schools and playgrounds and other places where minor children
congregate, unless approved by the probation officer.

14.

The defendant shall register, if required by law, with the state sex offender registration agency in any state where the defendant
resides, is employed, carries on a vocation, or is a student and shall provide written notification of compliance with this
condition as directed by the probation officer.

15.

The defendant shall reside at a residence approved by the probation officer, and shall notify the probation officer at least 30
days prior to any change in residence.

16.

The defendant shall have no contact with minors (in person, by telephone, through correspondence, or a third party) unless
approved by the probation officer and the Court.

17.

The defendant shall provide the probation officer with any requested financial information needed to verify there have been
no payments to entities that provide access to the Internet.

18.

The defendant shall provide the U.S. Probation Officer with truthful and complete information regarding all computer
hardware, software, electronic services, and data storage media to which the defendant has access.

19.

The defendant shall submit to a search of defendant's computer (including any handheld computing device, any electronic
device capable of connecting to any on-line service, or any data storage media) conducted by a U.S. Probation Officer, at a
reasonable time and in a reasonable manner, based upon reasonable suspicion of a violation of a condition of supervision.
Failure to submit to a search may be grounds for revocation. The defendant shall warn all individuals that have access to
defendant's computer that it is subject to search and/or seizure.

20.

The defendant is prohibited from accessing any on-line computer service at any location (including employment or education)
without the prior written approval of the U.S. Probation Officer.

21.

The defendant is prohibited from using or possessing any computer(s) (including any handheld computing device, any
electronic device capable of connecting to any on-line service, or any data storage media) without the prior written approval
of the U.S. Probation Officer. This includes, but is not limited to, computers at public libraries, Internet cafes, or the
defendant's place of employment or education.

22.

The defendant shall participate in the U.S. Probation Office's Computer Monitoring Program. Participation in the Program
may include installation of software or hardware on the defendant's computer that allows random or regular monitoring of the
defendant's computer use; periodic inspection of defendant's computer (including retrieval, copying, and review of its
electronic contents) to determine defendant's compliance with the Program; and restriction of the defendant's computer use to
those computers, software programs, and electronic services approved by the U.S. Probation Officer.

23.

The defendant shall have no contact with any victims (P.D., H.R., K.H., K.K.) in person, by telephone, through
correspondence or a third party unless approved in advance by the probation officer. If upon the defendant's release from
custody, victim P.D., wants to have contact with the defendant, it should be allowed, but not otherwise. This condition may
be modified.

APPENDIX, p. 13 of 51

AO 245B

Judgment in a Criminal Case DISTRJCT OF OREGON CUSTOMIZED (Rev. 5/2016)
Sheet 3 - Su ervised Release
DEFENDANT: JASON ANDREW DUNLAP
CASE NUMBER: 3:15-CR-00107-SI-l

Judgment-Page 5 of8

24.

As directed by the probation officer, the defendant shall take psychotropic medication, if medically approved, for the treatment
of a mental or emotional disorder.

25.

The defendant shall obtain one primary care physician and one mental health provider, who will prescribe defendant's
medications. The defendant will provide documentation of changes in medication and is required to sign a release of
information form allowing for the exchange of information between the medication prescribers and the probation officer.

26.

The defendant shall utilize one pharmacy to fill prescription medications and shall sign a release of
form allowing for the exchange of information between the pharmacy and the probation officer.

information

APPENDIX, p. 14 of 51

AO 245B

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 5/2016)
Sheet 4A - Probation
DEFENDANT: JASON ANDREW DUNLAP
CASE NUMBER: 3:15-CR-00107-SI-l

Judgment-Page 6 of 8

STANDARD CONDITIONS OF PROBATION AND SUPERVISED RELEASE
The Judges of the District of Oregon adopt the following standard conditions of probation and supervised release to apply in every
case in which probation and/or supervised release is imposed upon a defendant. The individual judge may impose other conditions
deemed advisable in individual cases of probation or supervised release supervision, as consistent with existing or future law.
1.
2.
3.

4.

5.

6.
7.
8.

9.
10.

11.
12.

13.

14.
15.
16.
17.
18.

The defendant shall report in person to the probation office for the district to which he or she is released within 72 hours
ofrelease from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state, or local crime and shall not illegally possess a controlled substance.
Revocation of probation or supervised release is mandatory for illegal possession of a controlled substance.
The defendant shall not possess a firearm, destructive, or dangerous device.
If the defendant illegally uses drugs or abuses alcohol, has a history of drug or alcohol abuse, or drug use or possession is
determined to be an element of the defendant's criminal history or instant offense, the defendant shall participate in a
substance abuse treatment program as directed by the probation officer which may include urinalysis testing to determine
if the defendant has used drugs or alcohol. In addition to urinalysis testing that may be part of a formal drug treatment
program, the defendant shall submit up to eight (8) urinalysis tests per month.
The defendant shall submit to a search of his/her person, residence, office or vehicle, when conducted by a United States
Probation Officer at a reasonable time and in a reasonable manner, based upon reasonable suspicion of contraband or
evidence of a violation of a condition of supervision. Failure to submit to a search may be grounds for revocation. The
defendant shall warn other residents that the premises may be subject to searches pursuant to this condition.
The defendant shall not leave the judicial district without the permission of the court or probation officer.
The defendant shall report to the probation officer as directed by the court or probation officer, and shall submit a truthful
and complete written report within the first five days of each month.
The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer. The defendant may decline to answer inquiries if a truthful response would tend to incriminate him/her. Such a
refusal to answer may constitute grounds for revocation.
The defendant shall support his or her dependents and meet other family responsibilities to the best of his or her financial
ability.
The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training,
or other acceptable reasons.
The defendant shall notify the probation officer within 72 hours of any change in residence or employment.
The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer
any narcotic or other controlled substance, or any paraphernalia related to such substances, except as prescribed by a
physician. If, at any time, the probation officer has reasonable cause to believe the defendant is using illegal drugs or is
abusing alcohol, the defendant shall submit to urinalysis testing, breathalyzer testing, or reasonable examination of the
arms, neck, face, and lower legs.
The defendant shall not knowingly frequent places where controlled substances are illegally sold, used, distributed, or
administered.
The defendant shall not knowingly associate with any persons engaged in criminal activity, and shall not knowingly
associate with any person convicted of a felony, unless granted permission to do so by the probation officer.
The defendant shall permit a probation officer to visit him or her at any reasonable time at home or elsewhere, and shall
permit confiscation of any contraband observed in plain view by the probation officer.
The defendant shall notify the probation officer within 72 hours of being arrested or questioned by a law enforcement
officer.
The defendant shall not enter into any agreement to act as an informant or special agent of a law enforcement agency
without the permission of the court.
As directed by the probation officer, the defendant shall notify third parties ofrisks that may be occasioned by his or her
criminal record or personal history and characteristics, and shall permit the probation officer to make such notifications
and to confinn the defendant's compliance with such a notification requirement. This requirement will be exercised only
when the probation officer believes a reasonably foreseeable risk exists or a law mandates such notice. Unless the
probation officer believes the defendant presents an immediate threat to the safety of an identifiable individual, notice
shall be delayed so the probation officer can arrange for a court hearing and the defendant can obtain legal counsel.

APPENDIX, p. 15 of 51

AO 245B

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 5/2016)
Sheet 5 - Criminal Monet
Penalties
DEFENDANT: JASON ANDREW DUNLAP
CASE NUMBER: 3:15-CR-00107-SI-l

Judgment-Page 7 of 8

CRIMINAL MONETARY PENAL TIES
The defendant shall pay the following total criminal monetary penalties in accordance with the Schedule of Payments set forth in
this judgment.
Assessment
(as noted on Sheet 1)

TOTALS

$-0-

$100

Restitution

TOTAL

$9,105.85

$ 9,205.85

□ The determination of restitution is deferred until _ _ _ _ _ _ _ _ _ . An.Amended Judgment in a Criminal Case will be
entered after such determination.

~The defendant shall make restitution (including community restitution) to the following payees in the amount listed below.

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order,or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(1), all non-federal
victims must be paid in full prior to the United States receiving payment.

JS for victim HK
(See Statement of Reasons
for victim address
information)

Amount of Restitution
Ordered

Total Amount of Loss 1

Name of Payee
$

Priority Order or
Percentage of Payment

$ 953.23

$8,152.62
Crime Victims' Services
Division - CICA
1162 Court Street, NE
Salem, Oregon 97301

TOTALS

□ If applicable,

$

$9,105.85

restitution amount order pursuant to plea agreement: $_ _ __

□ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default; pursuant to 18 U.S.C. § 3612(g).

~The court determined that the defendant does not have the ability to pay interest and it is ordered that
~The interest is waived for the □ fine and/or~ restitution.
□ The

interest requirement for the □ fine and/or D restitution is modified as follows:

1

Findings for the total amount oflosses are required under Chapters 109A, 110, l l0A, and 113A of Title 18, United States Code,
for offenses committed on or after September 13, 1994, but before April 23, 1996.

APPENDIX, p. 16 of 51

AO 245B

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 5/2016)
Sheet 5 - Criminal Monetary Penalties
DEFENDANT: JASON ANDREW DUNLAP
CASE NUMBER: 3:15-CR-00107-Sl-1

Judgment-Page 8 of8

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties shall be as follows:
A.

~Lump sum payment of$9,205.85 due immediately, balance due
□ not later than _ _ _ _, or
~ in

accordance with ~ C or □ D below; or

~Payment to begin immediately (may be combined with~ C or □ D below); or
~If there is any unpaid balance at the time of defendant's release from custody, it shall be paid in monthly
installments of not less than $100 until paid in full, to commence immediately upon release from imprisonment.
D. □ Special instructions regarding the payment of criminal monetary penalties:
B.
C.

~ Payment of criminal monetary penalties, including restitution, shall be due during the period of imprisonment as follows:
(1) 50% of wages earned if the defendant is participating in a prison industries program; (2) $25 per quarter if the defendant is not
working in a prison industries program.

It is ordered that resources received from any source, including inheritance, settlement, or any other judgment, shall be applied to
any restitution or fine still owed, pursuant to 18 USC § 3664(n).
All criminal monetary penalties, including restitution, except those payments made through the Federal Bureau of Prisons' Inmate
Financial Responsibility Program, are made to the Clerk of Court at the address below, unless otherwise directed by the Court, the
Probation Officer, or the United States Attorney.

Clerk of Court
U.S. District Court - Oregon
1000 S.W. 3rd Ave., Ste. 740
Portland, OR 97204

The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

D Joint and Several
Case Number
Defendant and CoDefendant Names
(including Defendant
number)

Total Amount

Joint and Several Amount

Corresponding Payee, if
appropriate

□ The

defendant shall pay the cost of prosecution.
defendant shall pay the following court costs:
~The defendant shall forfeit the defendant's interest in the following property to the United States:
□ The

a.

One Apevia brand homebuilt tower-type personal computer, no serial number, containing a Hitachi 500 GB hard drive, a
Seagate 500 GB hard drive, and a Western Digital 1 TB hard drive;

b.

One Olympus Model ND C-770 Ultra Zoom 4.0 Megapixel digital camera; and

c.

One Vixia HF20A digital video camera, with power cord.

APPENDIX, p. 17 of 51

APPENDIX D

APPENDIX, p. 18 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

UNITED STATES OF AMERICA,
v.

Case No. 3:15-cr-107-SI
MEMORANDUM ON RESENTENCING

JASON ANDREW DUNLAP,
Defendant.

Michael H. Simon, District Judge.
Defendant Jason Andrew Dunlap waived his right to indictment pleaded guilty to a onecount Information charging him with production of child pornography, in violation of 18 U.S.C.
§ 2251(a)(1). On September 6, 2016, the Court sentenced Defendant to a term of 360 months
imprisonment (30 years), along with a life term of supervised release and restitution in the
amount of $9,105.85. Defendant timely appealed, arguing that the Court miscalculated the
applicable guideline range and erroneously concluded it lacked authority to sentence Defendant
below the statutory mandatory minimum. While Defendant’s appeal was pending, the Ninth
Circuit decided United States v. Reinhart, 893 F.3d 606 (9th Cir. 2018). On August 15, 2018, the
Ninth Circuit vacated and remanded for resentencing in light of Reinhart. The Ninth Circuit
explained:

PAGE 1 – MEMORANDUM ON RESENTENCING

APPENDIX, p. 19 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 2 of 11

The parties first addressed Reinhart in Rule 28(j) letters filed
shortly before oral argument. Defendant had previously conceded
that the prior state conviction charged in the Information triggered
a 25-year mandatory minimum sentence under 18 U.S.C.
§ 2251(e). However, Reinhart constitutes an intervening change in
the law that may affect the analysis of this issue, and the parties
agree that remand is appropriate to allow the district court to
evaluate in the first instance the potential impact of Reinhart on the
applicable statutory mandatory minimum. Because we find that
remand is appropriate in light of Reinhart, we decline to address at
this juncture the other issues raised in Defendant’s appeal.
The Court allowed additional briefing and argument on resentencing. On January 28,
2019, the Court held a hearing and re-imposed a sentence of 360 months imprisonment (30
years), along with a life term of supervised release and restitution in the amount of $9,105.85.
The Court explained its reasons from the bench and noted that it would be supplementing its
explanation in writing. This memorandum is that supplement.
A. Application of United States v. Reinhart
Defendant pleaded guilty to one count of production of child pornography, in violation of
18 U.S.C. § 2251(a)(1). The penalty for such a violation is set forth in § 2251(e), which provides,
in relevant part:
Any individual who violates, or attempts or conspires to violate,
this section shall be fined under this title and imprisoned not less
than 15 years nor more than 30 years, but if such person has one
prior conviction under this chapter, section 1591, chapter 71,
chapter 109A, or chapter 117, or under section 920 of title 10
(article 120 of the Uniform Code of Military Justice), or under the
laws of any State relating to aggravated sexual abuse, sexual abuse,
abusive sexual contact involving a minor or ward, or sex
trafficking of children, or the production, possession, receipt,
mailing, sale, distribution, shipment, or transportation of child
pornography, such person shall be fined under this title and
imprisoned for not less than 25 years nor more than 50 years[.]
18 U.S.C. §2251(e).

PAGE 2 – MEMORANDUM ON RESENTENCING

APPENDIX, p. 20 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 3 of 11

In 2005, Defendant was convicted in Oregon state court of two counts of encouraging
child sex abuse in the second degree. The Information specifically alleged that prior conviction.
Based on this prior conviction, the Government argued that under § 2251(e), Defendant was
subject to a mandatory minimum term of imprisonment of 25 years and a maximum term of 50
years. Defendant did not disagree with the Government’s position. The Ninth Circuit’s decision
in Reinhart, however, significantly changed the analysis under § 2251(e) of prior state court
convictions.
At resentencing, both the Government and Dunlap agree that under Oregon law the
Oregon state crime of encouraging child sex abuse in the second degree does not categorically
match its federal counterpart and that the applicable Oregon statute is not divisible. The parties
further agree that under Reinhart, the relevant Oregon state crime may no longer serve as a
sentence-enhancing predicate under § 2251(e). Thus, the parties agree that on resentencing
Dunlap may be sentenced to a term of imprisonment of not less than 15 years and not more
than 30 years.
B. Calculation of Applicable Sentencing Guidelines Range
Both the Government and the U.S. Probation Office calculate the applicable sentencing
guidelines range under the United States Sentencing Guidelines (“USSG”) as follows:
Base offense level

USSG § 2G2.1(a)

Minor victims under the age of 12

USSG § 2G2.1(b)(1)(A)

4

Aggravated sexual above

USSG § 2G2.1(b)(2)(B)

4

Distribution

USSG § 2G2.1(b)(3)

2

Defendant is a parent of a victim

USSG § 2G2.1(b)(5)

2

Additional victims (four victims in total)

USSG § 2G2.1(d)

4

Combined total adjusted offense level
PAGE 3 – MEMORANDUM ON RESENTENCING

32

48

APPENDIX, p. 21 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 4 of 11

Acceptance of responsibility

USSG § 3E1.1

-3

Total offense level

Chap. 5, Part A, cmt. n.2

43

The parties agree that Dunlap’s criminal history category is I. Accordingly, both the Government
and the U.S. Probation Office calculate the applicable sentencing guidelines range as life, which
then becomes the statutory maximum of 360 months, or 30 years.
Defendant disagrees. According to Defendant, the sentencing table establishes offense
levels that range from a floor of one to ceiling of 43, increasing in one-level increments. Thus,
argues Defendant, the sentencing table and the guidelines commentary establish 43 as an
absolute ceiling, and that is the level from which credit for acceptance of responsibility, when
applicable, should be deducted. The parties agree that Defendant is entitled to a three-level
decrease for acceptance of responsibility. Accordingly, Defendant concludes, his total offense
level should be 40 (43 minus 3), yielding an advisory guidelines range of 292-365 months, rather
than 360 months.
Defendant offers a policy argument in support of his conclusion. Specifically, Defendant
argues that if a defendant’s offense level before any reduction for accepting responsibility is 46
or higher, then there is no incentive, at least under the guidelines, for a defendant to accept
responsibility because such a defendant would not benefit from the three-level reduction allowed
under USSG § 3E1.1. That may be a reasonable policy argument, but it should be directed to the
United States Sentencing Commission, not to a sentencing court. The responsibility of the
sentencing court is correctly to calculate the applicable guidelines range following the directions
set forth in the guidelines. See generally Peugh v. United States, 133 S. Ct. 2072, 2080 (2013)
(noting that the guidelines serve as the starting point and initial benchmark in all sentencing
proceedings).

PAGE 4 – MEMORANDUM ON RESENTENCING

APPENDIX, p. 22 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 5 of 11

Section 1B1.1(a) of the USSG directs sentencing courts to apply the provisions of the
guidelines manual in order, by: (1) determining the base offense level and any specific offense
characteristics, cross-references, and special instructions in Chapter Two; (2) applying any
adjustments related to the victim, the defendant’s role in the offense, and obstruction of justice
from Parts A, B, and C of Chapter Three; (3) applying any multiple count adjustments from
Part D of Chapter Three; (4) applying any adjustment for acceptance of responsibility under
Part E of Chapter Three; (5) determining the defendant’s criminal history category under
Chapter 4; and (6) then determining the guideline range from Chapter 5. From there, sentencing
courts must consider any other grounds for departure under Parts H and K of Chapter 5, other
policy statements or commentary in the guidelines, and the statutory sentencing factors in
§ 3553(a). USSG § 1B1.1(b), (c). Further, USSG Chapter 5, Part A, Application Note 2 provides:
In rare cases, a total offense level of less than 1 or more than 43
may result from application of the guidelines. A total offense level
of less than 1 is to be treated as an offense level of 1. An offense
level of more than 43 is to be treated as an offense level of 43.
(Emphasis added.) Thus, the guidelines contemplate capping the defendant’s total offense level
at 43 after all guidelines adjustments have been made, and not, as Defendant suggests, at some
intermediate point in the calculation.
Following the methodology set forth in the guidelines themselves, the Court accepts the
guidelines calculation urged by the Government and the U.S. Probation Office and concludes
that the applicable guidelines “range” is 360 months (30 years). The guidelines, however, are
only advisory. United States v. Booker, 543 U.S. 220 (2005). Thus, even if the Court were to
accept Defendant’s calculation of the applicable guidelines range of 292-365 months, that would
not change the Court’s determination of the appropriate sentence. After considering all of the

PAGE 5 – MEMORANDUM ON RESENTENCING

APPENDIX, p. 23 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 6 of 11

factors in 18 U.S.C. § 3553(a), as discussed below, the Court concludes that a term of
imprisonment of 360 months is the appropriate sentence in this case.
C. Defendant’s Previous Argument Regarding the Mandatory Minimum
At the original sentencing hearing, the parties agreed that the mandatory minimum
sentence was 25 years, under § 2251(e). Defendant nevertheless argued that under 18 U.S.C.
§ 3553(e), the Court has the authority to impose a sentence below a mandatory minimum to
reflect a defendant’s substantial assistance in the investigation or prosecution of another person
who has committed an offense. Defendant argued that predicate was satisfied and thus the Court
had the authority to impose a sentence below 25 years.
Section 3553(e) provides:
Upon motion of the Government, the court shall have the authority
to impose a sentence below a level established by statute as a
minimum sentence so as to reflect a defendant’s substantial
assistance in the investigation or prosecution of another person
who has committed an offense. Such sentence shall be imposed in
accordance with the guidelines and policy statements issued by the
Sentencing Commission pursuant to section 994 of title 28, United
States Code.
18 U.S.C. § 3553(e) (emphasis added). The Government responded to Defendant’s argument by
stating that the Court had no authority to impose a sentence below a mandatory minimum
established by statute unless there was a motion of the Government to that effect. The Court
agreed with the Government as a matter of statutory interpretation, and that was one of the points
Defendant had raised on appeal.
The parties agree that, after Reinhart, the applicable minimum sentence is 15 years.
Defendant urges the Court to impose a sentence of 21 years, which is above the mandatory
minimum. Accordingly, the question of whether a sentencing court has the legal authority to
impose a sentence below a statutory minimum to reflect a defendant’s substantial assistance in

PAGE 6 – MEMORANDUM ON RESENTENCING

APPENDIX, p. 24 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 7 of 11

the investigation or prosecution of another person, in the absence of a Government motion to that
effect, is moot and need not be resolved by the Court in this case.
D. Appropriate Sentence Under Section 3553(a)
Section 3553(a) directs a sentencing court, after considering the nature and circumstances
of the offense and the history and characteristics of the defendant, to impose a sentence that is
sufficient, but not greater than necessary, to reflect the seriousness of the offense, promote
respect for the law, provide just punishment for the offense, afford adequate deterrence to
criminal conduct, protect the public from further crimes of the defendant, and provide the
defendant with needed training, care, or other correctional treatment. 18 U.S.C. § 3553(a)(1)-(2).
The Court has followed this direction and concludes that a term of imprisonment of 360 months
(30 years) best satisfies the sentencing objectives.
Of particular importance in this case is the need to protect the public (specifically,
children) from further crimes of the Defendant. As explained by the Government:
This case arose from an investigation into two online bulletin
boards that operated on the “dark web.” Their primary purposes
were the advertisement and distribution of child pornography, and
providing a forum in which to discuss incest and pedophilia (PSR
¶ 6). Members on the two sites posted images of child
pornography, bestiality, bondage, and child erotica involving both
boys and girls, ranging in age from toddlers to prepubescent
children (id.).
Defendant was a member of both sites. Between May 2012 and
July 2013, he posted 61 images, most of which depicted child
pornography, to one of the sites (PSR ¶ 9). He also posted a
number of messages to that site, many of which referenced his
daughter. Posting under the screen name “Busterhymen,”
defendant described himself as a child pornography producer who
was “always up for chatting about the ins and outs of producing
and getting it done safely,” and who was willing to “fulfill
requests” for “[s]trange, kinky, simple, [or] cum filled” images
(PSR ¶ 11). Defendant said he would “not do anything I am not
comfortable with,” but indicated a willingness to “do what I can to
help [his daughter’s] fans get hard and cum ;-)” (id.). He marveled
PAGE 7 – MEMORANDUM ON RESENTENCING

APPENDIX, p. 25 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 8 of 11

over his daughter’s prepubescent anatomy and the pleasure he
received from having sex with her, describing it as “[s]o much
harder and stronger than [with] any woman” (PSR ¶ 15). Images of
child pornography accompanied that post (PSR ¶ 16).
Defendant wrote that he was debating posting additional photos of
his daughter (PSR ¶ 11). He said he was “always happy to chat and
trade ideas and pics with other producers,” but admonished those
who neither had a “lil one” nor access to one to not contact him for
additional images (id.). In a later post, defendant wrote that his
daughter was “so very special” and that she “loves to hear how
much guys like her body” (PSR ¶ 13). Each post was accompanied
by images of child pornography involving a prepubescent girl
(PSR ¶¶ 12, 14, 16).
In September 2013, the FBI served a federal search warrant on an
e-mail account associated with Busterhymen. Agents found over
100 e-mails in the account, most of which pertained to molesting
children or trading in child pornography (PSR ¶ 17). There were
over 50 pictures attached to the e-mails, most of which depicted
child pornography (id.).
Investigators eventually located an Internet Protocol (IP) address
associated with Busterhymen, and traced the IP address back to
defendant’s residence (PSR ¶ 18). They learned that defendant was
a previously convicted sex offender (id.). Defendant’s Yamhill
County probation officer described defendant as having an interest
in hard-core child pornography, and as someone who was “highrisk, deviant, and predatory” (id.).
On July 18, 2014, agents arrested defendant at his place of
employment, and executed a search warrant at his Newberg home
(PSR ¶¶ 20, 22). During the search, they found and seized a purple
dress that matched the dress shown in some of the images of child
pornography Busterhymen posted, rectal thermometers, anal
dilators, and written directions for sedating a child using ketamine
and Xanax (PSR ¶ 20). They also seized a box containing, among
other things, an enema, child’s panties, anal beads, personal
lubricant, a pediatric stool softener, and packages of “perfect
measure” Benadryl (PSR ¶ 21). Another box contained a Minnie
Mouse costume, two pairs of children’s tights with the crotch areas
cut out, a leopard-print child’s skirt, sex toys (including a butt plug
and a vibrator), a pink penis-shaped candle, lipstick, and a tube of
“Recti-Care” (id.).
Defendant declined to make any statement at the time of his arrest
(PSR ¶ 22). However, he later met with investigators and

PAGE 8 – MEMORANDUM ON RESENTENCING

APPENDIX, p. 26 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 9 of 11

prosecutors (with counsel present), agreed to decrypt his computer,
and provided information about his involvement in the production
and distribution of child pornography (PSR ¶¶ 23, 24).
Defendant admitted sexually abusing and exploiting four young
children, including his own daughter. He admitted producing and
distributing child pornography depicting all four children (PSR
¶¶ 24, 25). He drugged the children before abusing them, and used
photo-editing software to obliterate distinguishing marks or
characteristics on the children or in the backgrounds of the images
(PSR ¶¶ 26, 27).
Evidence found on defendant’s computer led to the arrest and
successful prosecution of two other child pornography producers
and the identification of three victims. Information gleaned from
online chat logs found on defendant’s computer helped to
corroborate information investigators learned from other sources,
although it did not directly lead to the prosecution of any other
defendants. In addition, based on information provided by
defendant, investigators were able to identify and arrest an
individual who had been extorting money from people who had
produced or traded in child pornography, including defendant. In
2018, the extortionist was sentenced in this Court following pleas
of guilty to a number of offenses.
ECF 89 at 2-5 (footnote omitted).
The Government also explained the Defendant’s history. The Government stated:
Defendant has a troubling and repetitive criminal history. He
incurred his first criminal conviction in 2000, at the age of 27. He
was convicted of invasion of personal privacy in Yamhill County
after he videotaped a 10-year-old girl using the toilet in the
women’s restroom at a McDonald’s restaurant (PSR ¶ 62). Two
months after his conviction, he violated his probation by peeping
into a women’s restroom several times over a five- to six-hour
period (id.).
In 2001, he was convicted of encouraging child sex abuse in the
third degree and invasion of personal privacy in Washington
County after he went into the women’s restroom of a Taco Bell
restaurant and videotaped a 12-year-old girl using the toilet (PSR
¶ 63). A search of defendant’s computer pursuant to a state search
warrant revealed images of naked children posed in sexually
provocative positions (id.). During an interview following the
search, defendant admitted taking pictures of other young girls

PAGE 9 – MEMORANDUM ON RESENTENCING

APPENDIX, p. 27 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 10 of 11

sitting on toilets in various fast food restaurants in Tualatin,
Tigard, and Newberg (id.).
While on probation in the Washington and Yamhill County cases,
defendant admitted to viewing hundreds of images of child
pornography on his computer (PSR ¶ 64). As a result, he was
convicted of two counts of encouraging child sex abuse in the
second degree in Yamhill County (id.). He was placed on
probation for the third time (id.).
Defendant was placed in sex offender treatment while he was on
probation in Yamhill County. An assessment completed by
Dr. Richard King of Child/Adult Intervention Services in Tigard
concluded that defendant was “narcissistic, depressive, antisocial
and dependent” (PSR ¶ 76). Dr. King also concluded that
defendant displayed passive-aggressive behaviors with emerging
violence indicators that may lead to forced sexual incidences
directed toward females – both children and adults (id.). Dr. King
expressed concern that defendant posed a risk of re-offending (id.).
Following a 2004 psychosexual evaluation, Dr. King diagnosed
defendant as having a chronic adjustment disorder with “Mixed
Disturbance of Emotions and Conduct,” deferred diagnoses for
pedophilia and sexual sadism, and noted narcissistic, depressive,
and antisocial personality traits with schizoid and obsessivecompulsive personality features (PSR ¶ 79).
Randy Settell, defendant’s Yamhill County probation officer,
noted that defendant was into hard-core child pornography,
including images of infants being sexually penetrated and children
being tortured (PSR ¶ 33). Settell described defendant as “highrisk, deviant, and predatory” (id.).
ECF 89 at 18-19 (footnote omitted).
At the original sentencing hearing, the Court explained that the Court’s primary concern
was protecting the public from further crimes of the Defendant. That is still the Court’s primary
concern. The Court was, and remains, seriously concerned that the Defendant either cannot or
will not be able to control himself upon release, even with supervision. Thus, the Defendant
presents a very serious risk to the public upon release from incarceration. The Defendant was
born in 1972 and is currently 46 years old. Even under a 30-year sentence, assuming full credit
for good behavior, Defendant will be in his young 70’s upon release.
PAGE 10 – MEMORANDUM ON RESENTENCING

APPENDIX, p. 28 of 51

Case 3:15-cr-00107-SI

Document 94

Filed 01/29/19

Page 11 of 11

Defendant argues that imposing a sentence equal to the statutory maximum of 30 years
does not reflect either his acceptance of responsibility or his substantial assistance and
cooperation provided to the Government. In response, the Government explains:
A person who sexually exploits four separate children over a twoyear period would ordinarily be charged with at least four separate
counts of producing child pornography – not less than one count
per child. Even without the sentence enhancement, four production
counts would carry a maximum penalty of 120 years’
imprisonment. Instead, defendant was charged with a single count,
which substantially limited his potential sentencing exposure.
Moreover, since defendant committed that offense while he was
required to register as a sex offender, he was subject to an
additional charge under 18 U.S.C. § 2260A, which would have
carried a mandatory, consecutive penalty of at least ten years’
imprisonment. Yet because of his cooperation, the government did
not raise that allegation, sparing defendant from ten additional
years in prison. Those charging decisions were deliberate, and
were made with an eye toward a negotiated settlement based on
defendant’s cooperation (RTP 3-4). Defendant received the
benefits of those charging concessions, even though he ultimately
rejected the government’s plea offer and pled guilty without an
agreement.
Defendant has already received a substantial benefit from his
cooperation. Given the horrendous nature of his conduct and in
light of his very troubling criminal history, he deserves nothing
more.
ECF 89 at 22. The Court is satisfied that the sentence imposed is appropriate in light of the
sentencing objectives set forth in Section 3553(a) and sufficiently accounts for Defendant’s
acceptance of responsibility and substantial cooperation and assistance to the Government.
IT IS SO ORDERED.
DATED this 29th day of January, 2019.
/s/ Michael H. Simon
Michael H. Simon
United States District Judge

PAGE 11 – MEMORANDUM ON RESENTENCING

APPENDIX, p. 29 of 51

APPENDIX E

APPENDIX, p. 30 of 51

United States v. Dunlap | Cases | Westlaw

1 of 3

https://1.next.westlaw.com/Document/I545cdcd0812011ea9516ceea8aeb...

APPENDIX, p. 31 of 51

9/16/2020, 8:53 AM

United States v. Dunlap | Cases | Westlaw

2 of 3

https://1.next.westlaw.com/Document/I545cdcd0812011ea9516ceea8aeb...

APPENDIX, p. 32 of 51

9/16/2020, 8:53 AM

United States v. Dunlap | Cases | Westlaw

3 of 3

https://1.next.westlaw.com/Document/I545cdcd0812011ea9516ceea8aeb...

APPENDIX, p. 33 of 51

9/16/2020, 8:53 AM

APPENDIX F

APPENDIX, p. 34 of 51

UNITED STATES COURT OF APPEALS

FILED
JUN 23 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JASON ANDREW DUNLAP,

No.

19-30029

D.C. No. 3:15-cr-00107-SI-1
District of Oregon,
Portland
ORDER

Defendant-Appellant.
Before: WOLLMAN,* FERNANDEZ, and PAEZ, Circuit Judges.
The Petition for Rehearing En Banc was circulated to the full court. No
judge called for rehearing en banc. The Petition for Rehearing En Banc is
DENIED. Fed. R. App. P. 35.

*

The Honorable Roger L. Wollman, United States Circuit Judge for the
U.S. Court of Appeals for the Eighth Circuit, sitting by designation.
APPENDIX, p. 35 of 51

APPENDIX G

APPENDIX, p. 36 of 51

Ch. 1 Pt. A
This empirical approach helped the Commission resolve its practical problem by
defining a list of relevant distinctions that, although of considerable length, was short
enough to create a manageable set of guidelines. Existing categories are relatively broad
and omit distinctions that some may believe important, yet they include most of the
PDMRUGLVWLQFWLRQVWKDWVWDWXWHVDQGGDWDVXJJHVWPDGHDVLJQLILFDQWGLIIHUHQFHLQVHQ
tencing decisions. Relevant distinctions not reflected in the guidelines probably will occur rarely and sentencing courts may take such unusual cases into account by departing
from the guidelines.
The Commission’s empirical approach also helped resolve its philosophical diOHPPD 7KRVH ZKR DGKHUH WR D MXVW GHVHUWV SKLORVRSK\ PD\ FRQFHGH WKDW WKH ODFk of
consensus might make it difficult to say exactly what punishment is deserved for a parWLFXODU FULPH /LNHZLVH WKRVH ZKR VXEVFULEH WR D SKLORVRSK\ RI FULPH FRQWURO PD\
acknowledge that the lack of sufficient data might make it difficult to determine exactly
the punishment that will best prevent that crime. Both groups might therefore recognize
WKH ZLVGRP RI ORRNLQJ WR WKRVH GLVWLQFWLRQV WKDW MXGJHV DQG OHJLVODWRUV KDYH LQ IDFW
made over the course of time. These established distinctions are ones that the commuQLW\EHOLHYHVRUKDVIRXQGRYHUWLPHWREHLPSRUWDQWIURPHLWKHUDMXVWGHVHUWVRUFULPH
control perspective.
The Commission did not simply copy estimates of pre-guidelines practice as revealed by the data, even though establishing offense values on this basis would help
eliminate disparity because the data represent averages. Rather, it departed from the
data at different points for various important reasons. Congressional statutes, for example, suggested or required departure, as in the case of the Anti-Drug Abuse Act of
WKDWLPSRVHGLQFUHDVHGDQGPDQGDWRU\PLQLPXPVHQWHQFHV,QDGGLWLRQWKHGDWD
revealed inconsistencies in treatment, such as punishing economic crime less severely
than other apparently equivalent behavior.
Despite these policy-oriented departures from pre-guidelines practice, the guidelines represent an approach that begins with, and builds upon, empirical data. The
guidelines will not please those who wish the Commission to adopt a single philosophical
theory and then work deductively to establish a simple and perfect set of categorizations
and distinctions. The guidelines may prove acceptable, however, to those who seek more
modest, incremental improvements in the status quo, who believe the best is often the
enemy of the good, and who recognize that these guidelines are, as the Act contemplates,
but the first step in an evolutionary process. After spending considerable time and resources exploring alternative approaches, the Commission developed these guidelines
as a practical effort toward the achievement of a more honest, uniform, equitable, proportional, and therefore effective sentencing system.

4.

The Guidelines’ Resolution of Major Issues (Policy Statement)

The guideline-drafting process required the Commission to resolve a host of important policy questions typically involving rather evenly balanced sets of competing
considerations. As an aid to understanding the guidelines, this introduction briefly discusses several of those issues; commentary in the guidelines explains others.
Guidelines Manual (November 1, 2018   ɠ  5

APPENDIX, p. 37 of 51

Ch. 1 Pt. A

(a) Real Offense vs. Charge Offense Sentencing.
One of the most important questions for the Commission to decide was whether to
base sentences upon the actual conduct in which the defendant engaged regardless of
the charges for which he was indicted or convicted (“real offense” sentencing), or upon
the conduct that constitutes the elements of the offense for which the defendant was
charged and of which he was convicted (“charge offense” sentencing). A bank robber, for
example, might haYHXVHGDJXQIULJKWHQHGE\VWDQGHUVWDNHQLQMXUHGDWHOOHU
refused to stop when ordered, and raced away damaging property during his escape. A
pure real offense system would sentence on the basis of all identifiable conduct. A pure
charge offense system would overlook some of the harms that did not constitute statutory elements of the offenses of which the defendant was convicted.
The Commission initially sought to develop a pure real offense system. After all,
the pre-guidelines sentencing system was, in a sense, this type of system. The sentencing court and the parole commission took account of the conduct in which the defendant
actually engaged, as determined in a presentence report, at the sentencing hearing, or
before a parole commission hearing officer. The Commission’s initial efforts in this direction, carried out in the spring and early summer of 1986, proved unproductive, mostly
for practical reasons. To make such a system work, even to formalize and rationalize the
status quo, would have required the Commission to decide precisely which harms to take
into account, how to add them up, and what kinds of procedures the courts should use
to determine the presence or absence of disputed factual elements. The Commission
found no practical way to combine and account for the large number of diverse harms
arising in different circumstances; nor did it find a practical way to reconcile the need
IRUDIDLUDGMXGLFDWRU\SURFHGXUHZLWKWKHQHHGIRUDVSHHG\VHQWHQFLQJSURFHVVJLYHQ
the potential e[LVWHQFHRIKRVWVRIDGMXGLFDWHG´UHDOKDUPµIDFWVLQPDQ\W\SLFDOFDVHV
The effort proposed as a solution to these problems required the use of, for example,
quadratic roots and other mathematical operations that the Commission considered too
complex to EHZRUNDEOH,QWKH&RPPLVVLRQ·VYLHZVXFKDV\VWHPULVNHGUHWXUQWRZLGH
disparity in sentencing practice.
,QLWVLQLWLDOVHWRIJXLGHOLQHVVXEPLWWHGWR&RQJUHVVLQ$SULOWKH&RPPLVVLRQ
moved closer to a charge offense system. This system, however, does contain a signifiFDQWQXPEHURIUHDORIIHQVHHOHPHQWV)RURQHWKLQJWKHKXQGUHGVRIRYHUODSSLQJDQG
duplicative statutory provisions that make up the federal criminal law forced the Commission to write guidelines that are descriptive of generic conduct rather than guidelines
WKDWWUDFNSXUHO\VWDWXWRU\ODQJXDJH)RUDQRWKHUWKHJXLGHOLQHVWDNHDFFRXQWRIDQXP
ber of important, commonly occurring real offense elements such as role in the offense,
the presence of a gun, or the amount of money actually taken, through alternative base
RIIHQVHOHYHOVVSHFLILFRIIHQVHFKDUDFWHULVWLFVFURVVUHIHUHQFHVDQGDGMXVWPHQWV
The Commission recognized that a charge offense system has drawbacks of its own.
One of the most important is the potential it affords prosecutors to influence sentences
by increasing or decreasing the number of counts in an indictment. Of course, the defendant’s actual conduct (that which the prosecutor can prove in court) imposes a natural limit upon the prosecutor’s ability to increase a defendant’s sentence. Moreover, the
Commission has written its rules for the treatment of multicount convictions with an
6 ɠ  *XLGHOLQHV0DQXDO 1RYHPEHU8)

APPENDIX, p. 38 of 51

Ch. 1 Pt. A
H\HWRZDUGHOLPLQDWLQJXQIDLUWUHDWPHQWWKDWPLJKWIORZIURPFRXQWPDQLSXODWLRQ)RU
example, the guidelines treat a three-count indictment, each count of which charges sale
of 100 grams of heroin or theft of $10,000, the same as a single-count indictment charging sale of 300 JUDPVRIKHURLQRUWKHIWRI)XUWKHUPRUHDVHQWHQFLQJFRXUWPD\
control any inappropriate manipulation of the indictment through use of its departure
SRZHU)LQDOO\WKH&RPPLVVLRQZLOOFORVHO\PRQLWRUFKDUJLQJDQGSOHDDJUHHPHQWSUDF
WLFHVDQGZLOOPDNHDSSURSULDWHDGMXVWPHQWVVKRXOGWKH\EHFRPHQHFHVVDU\
(b) Departures.
The sentencing statute permits a court to depart from a guideline-specified sentence only when it finds “an aggravating or mitigating circumstance of a kind, or to a
degree, not adequately taken into consideration by the Sentencing Commission in formulating the guidelines that should result in a sentence different from that described.”
18 U.S.C. § 3553(b). The Commission intends the sentencing courts to treat each guideline as carving out a “heartland,” a set of typical cases embodying the conduct that each
JXLGHOLQHGHVFULEHV:KHQDFRXrt finds an atypical case, one to which a particular guideline linguistically applies but where conduct significantly differs from the norm, the
court may consider whether a departure is warranted. Section 5H1.10 (Race, Sex, National Origin, Creed, Religion, and Socio-(FRQRPLF6WDWXV + /DFNRI*XLGDQFH
as a Youth and Similar Circumstances), the third sentence of §5H1.4 (Physical CondiWLRQ,QFOXGLQJ'UXJRU$OFRKRO'HSHQGHQFHRU$EXVH WKHODVWVHQWHQFHRI. &R
ercion and Duress), and §5K2.19 (Post-Sentencing Rehabilitative Efforts)* list several
IDFWRUV WKDW WKH FRXUW FDQQRW WDNH LQWR DFFRXQW DV JURXQGV IRU GHSDUWXUH :LWK WKRVH
specific exceptions, however, the Commission does not intend to limit the kinds of factors, whether or not mentioned anywhere else in the guidelines, that could constitute
grounds for departure in an unusual case.
*Note: Section 5K2.19 (Post-Sentencing Rehabilitative Efforts) was deleted by Amendment 768, effective November 1,
2012. (See USSG App. C, amendment 768.)

7KH&RPPLVVLRQKDVDGRSWHGWKLVGHSDUWXUHSROLF\IRUWZRUHDVRQV)LUVWLWLVGLI
ficult to prescribe a single set of guidelines that encompasses the vast range of human
conduct potentially relevant to a sentencing decision. The Commission also recognizes
that the initial set of guidelines need not do so. The Commission is a permanent body,
empowered by law to write and rewrite guidelines, with progressive changes, over many
years. By monitoring when courts depart from the guidelines and by analyzing their
stated reasons for doing so and court decisions with references thereto, the Commission,
over time, will be able to refine the guidelines to specify more precisely when departures
should and should not be permitted.
Second, the Commission believes that despite the courts’ legal freedom to depart
from the guidelines, they will not do so very often. This is because the guidelines, offense
by offense, seek to take account of those factors that the Commission’s data indicate
made a significant difference in pre-guidelines sentencing practice. Thus, for example,
ZKHUHWKHSUHVHQFHRISK\VLFDOLQMXU\PDGHDQLPSRUWDQWGLIIHUHQFHLQSUH-guidelines
sentencing practice (as in the case of robbery or assault), the guidelines specifically include this factor to enhancHWKHVHQWHQFH:KHUHWKHJXLGHOLQHVGRQRWVSHFLI\DQDXJ
mentation or diminution, this is generally because the sentencing data did not permit
Guidelines Manual (November 1, 2018   ɠ  7

APPENDIX, p. 39 of 51

Ch. 1 Pt. A
the Commission to conclude that the factor was empirically important in relation to the
particular offense. Of course, an important factor (e.g.SK\VLFDOLQMXU\ PD\LQIUHTXHQWO\
occur in connection with a particular crime (e.g., fraud). Such rare occurrences are precisely the type of events that the courts’ departure powers were designed to cover —
unusual cases outside the range of the more typical offenses for which the guidelines
were designed.
,WLVLPSRUWDQWWRQRWHWKDWWKHJXLGHOLQHVUHIHUWRWZRGLIIHUHQWNLQGVRIGHSDUWXUH
The first involves instances in which the guidelines provide specific guidance for departure by analogy or by other numerical or non-numerical suggestions. The Commission
intends such suggestions as policy guidance for the courts. The Commission expects that
most departures will reflect the suggestions and that the courts of appeals may prove
more likely to find departures “unreasonable” where they fall outside suggested levels.
$VHFRQGW\SHRIGHSDUWXUHZLOOUHPDLQXQJXLGHG,WPD\UHVWXSRQJURXQGVUHIHUUHG
WRLQ&KDSWHU)LYH3DUW. 'HSDUWXUHV RURQJURXQGVQRWPHQWLRQHGLQWKH guidelines.
:KLOH&KDSWHU)LYH3DUW.OLVWVIDFWRUVWKDWWKH&RPPLVVLRQEHOLHYHVPD\FRQVWLWXWH
grounds for departure, the list is not exhaustive. The Commission recognizes that there
may be other grounds for departure that are not mentioned; it also believes there may
EHFDVHVLQZKLFKDGHSDUWXUHRXWVLGHVXJJHVWHGOHYHOVLVZDUUDQWHG,QLWVYLHZKRZ
ever, such cases will be highly infrequent.
(c) Plea Agreements.
Nearly ninety percent of all federal criminal cases involve guilty pleas and many of
these cases involve some form of plea agreement. Some commentators on early CommisVLRQJXLGHOLQHGUDIWVXUJHGWKH&RPPLVVLRQQRWWRDWWHPSWDQ\PDMRUUHIRUPVRIWKHSOHD
agreement process on the grounds that any set of guidelines that threatened to change
pre-guidelines practice radically also threatened to make the federal system unmanageable. Others argued that guidelines that failed to control and limit plea agreements
would leave untouched a “loophole” large enough to undo the good that sentencing guidelines would bring.
7KH&RPPLVVLRQGHFLGHGQRWWRPDNHPDMRUFKDQJHVLQSOHDDJUHHPHQWSUDFWLFHV
in the initial guidelines, but rather to provide guidance by issuing general policy statements concerning the acceptance of plea agreements in Chapter Six, Part B (Plea AgreePHQWV 7KHUXOHVVHWIRUWKLQ)HG5&ULP3 H JRYHUQWKHDFFHSWDQFHRUUHMHFWLRQ
of such agreements. The Commission will collect data on the courts’ plea practices and
will analyze this information to determine when and why the courts DFFHSWRUUHMHFWSOHD
agreements and whether plea agreement practices are undermining the intent of the
6HQWHQFLQJ5HIRUP$FW,QOLJKWRIWKLVLQIRUPDWLRQDQGDQDO\VLVWKH&RPPLVVLRQZLOO
seek to further regulate the plea agreement process as appropriatH,PSRUWDQWO\LIWKH
policy statements relating to plea agreements are followed, circumvention of the Sentencing Reform Act and the guidelines should not occur.
The Commission expects the guidelines to have a positive, rationalizing impact
upon plea agrHHPHQWVIRUWZRUHDVRQV)LUVWWKHJXLGHOLQHVFUHDWHDFOHDUGHILQLWHH[
SHFWDWLRQLQUHVSHFWWRWKHVHQWHQFHWKDWDFRXUWZLOOLPSRVHLIDWULDOWDNHVSODFH,QWKH
event a prosecutor and defense attorney explore the possibility of a negotiated plea, they
8 ɠ  *XLGHOLQHV0DQXDO 1RYHPEHU8)

APPENDIX, p. 40 of 51

Ch. 1 Pt. A
will no longer work in the dark. This fact alone should help to reduce irrationality in
respect to actual sentencing outcomes. Second, the guidelines create a norm to which
courts will likely refer when they decide whether, under Rule 11(e), to accept or WRUHMHFW
a plea agreement or recommendation.
(d) Probation and Split Sentences.
The statute provides that the guidelines are to “reflect the general appropriateness
of imposing a sentence other than imprisonment in cases in which the defendant is a
first offender who has not been convicted of a crime of violence or an otherwise serious
offense . . . .” 28 U.S.C. §  M 8QGHUSUH-guidelines sentencing practice, courts sentenced to probation an inappropriately high percentage of offenders guilty of certain
economic crimes, such as theft, tax evasion, antitrust offenses, insider trading, fraud,
and embezzlement, that in the Commission’s view are “serious.”
The Commission’s solution to this problem has been to write guidelines that classify as serious many offenses for which probation previously was frequently given and
provide for at least a short period of imprisonment in such cases. The Commission concluded that the definite prospect of prison, even though the term may be short, will serve
as a significant deterrent, particularly when compared with pre-guidelines practice
where probation, not prison, was the norm.
0RUHVSHFLILFDOO\WKHJXLGHOLQHVZRUNDVIROORZVLQUHVSHFWWRDILUVWRIIHQGHU)RU
offense levels one through eight, the sentencing court may elect to sentence the offender
to probation (with or without confinement condiWLRQV RUWRDSULVRQWHUP)RURIIHQVH
levels nine and ten, the court may substitute probation for a prison term, but the probation must include confinement conditions (community confinement, intermittent conILQHPHQWRUKRPHGHWHQWLRQ )RURIIHQVHOHYHOs eleven and twelve, the court must impose at least one-half the minimum confinement sentence in the form of prison confinement, the remainder to be served on supervised release with a condition of community
confinement or home detention. The Commission, of course, has not dealt with the single
DFWVRIDEHUUDQWEHKDYLRUWKDWVWLOOPD\MXVWLI\SUREDWLRQDWKLJKHURIIHQVHOHYHOVWKURXJK
departures.*
1RWH$OWKRXJKWKH&RPPLVVLRQKDGQRWDGGUHVVHG´VLQJOHDFWVRIDEHUUDQWEHKDYLRUµDWWKHWLPHWKH,QWURGXFWLon to the
Guidelines Manual originally was written, it subsequently addressed the issue in Amendment 603, effective November 1,
2000. (See USSG App. C, amendment 603.)

(e) Multi-Count Convictions.
The Commission, like several state sentencing commissions, has found it particularly difficult to develop guidelines for sentencing defendants convicted of multiple violations of law, each of which makes up a separate count in an indictment. The difficulty
is that when a defendant engages in conduct that causes several harms, each additional
harm, even if it increases the extent to which punishment is warranted, does not necessarily warrant a proportionate increase in punishment. A defendant who assaults others
GXULQJDILJKWIRUH[DPSOHPD\ZDUUDQWPRUHSXQLVKPHQWLIKHLQMXUHVWHQSHRSOHWKDQ
LIKHLQMXUHVRQHEXWKLVFRQGXFWGRHVQRWQHFHVVDULO\ZDUUDQWWHQWLPHVWKHSXQLVKPHQW
,ILWGLGPDQ\RIWKHVLPSOHVWRIIHQVHVIRUUHDVRQVWKDWDUHRIWHQIRUWXitous, would lead

Guidelines Manual (November 1, 2018   ɠ  9

APPENDIX, p. 41 of 51

Ch. 1 Pt. A
to sentences of life imprisonment — VHQWHQFHVWKDWQHLWKHUMXVWGHVHUWVQRUFULPHFRQWURO
WKHRULHVRISXQLVKPHQWZRXOGMXVWLI\
Several individual guidelines provide special instructions for increasing punishment when the conduct that is WKHVXEMHFWRIWKDWFRXQWLQYROYHVPXOWLSOHRFFXUUHQFHV
or has caused several harms. The guidelines also provide general rules for aggravating
punishment in light of multiple harms charged separately in separate counts. These
rules may produce occasional anomalies, but normally they will permit an appropriate
GHJUHHRIDJJUDYDWLRQRISXQLVKPHQWIRUPXOWLSOHRIIHQVHVWKDWDUHWKHVXEMHFWVRIVHSD
rate counts.
These rules are set out in Chapter Three, Part D (Multiple Counts). They essentially provide: (1) when the conduct involves fungible items (e.g., separate drug transactions or thefts of money), the amounts are added and the guidelines apply to the total
amount; (2) when nonfungible harms are involved, the offense level for the most serious
count is increased (according to a diminishing scale) to reflect the existence of other
counts of conviction. The guidelines have been written in order to minimize the possibility that an arbitrary casting of a single transaction into several counts will produce a
longHUVHQWHQFH,QDGGLWLRQWKHVHQWHQFLQJFRXUWZLOOKDYHDGHTXDWHSRZHUWRSUHYHQW
such a result through departures.
(f)

Regulatory Offenses.

Regulatory statutes, though primarily civil in nature, sometimes contain criminal
provisions in respect to particularly harmful activity. Such criminal provisions often describe not only substantive offenses, but also more technical, administratively-related
offenses such as failure to keep accurate records or to provide requested information.
These statutes pose two problems: first, which criminal regulatory provisions should the
Commission initially consider, and second, how should it treat technical or administratively-related criminal violations?
,QUHVSHFWWRWKHILUVWSUREOHPWKH&RPPLVVLRQIRXQGWKDWLWFRXOd not comprehensively treat all regulatory violations in the initial set of guidelines. There are hundreds
of such provisions scattered throughout the United States Code. To find all potential
violations would involve examination of each individual federal regulation. Because of
this practical difficulty, the Commission sought to determine, with the assistance of the
Department of Justice and several regulatory agencies, which criminal regulatory offenses were particularly important in light of the need for enforcement of the general
regulatory scheme. The Commission addressed these offenses in the initial guidelines.
,QUHVSHFWWRWKHVHFRQGSUREOHPWKH&RPPLVVLRQKDVGHYHORSHGDV\VWHPIRUWUHDW
ing technical recordkeeping and reporting offenses that divides them into four categoULHV)LUVWLQWKHVLPSOHVWRIFDVHVWKHRIIHQGHUPD\KDYHIDLOHGWRILOORXWDIRUPLQWHQ
tionally, but without knowledge or intent that substantive harm would likely follow. He
might fail, for example, to keep an accurate record of toxic substance transport, but that
failure may not lead, nor be likely to lead, to the release or improper handling of any
toxic substance. Second, the same failure may be accompanied by a significant likelihood
that substantive harm will occur; it may make a release of a toxic substance more likely.

10 ɠ  *XLGHOLQHV0DQXDO 1RYHPEHU8)

APPENDIX, p. 42 of 51

Ch. 1 Pt. A
7KLUGWKHVDPHIDLOXUHPD\KDYHOHGWRVXEVWDQWLYHKDUP)RXUWKWKHIDLOXUHPD\UHS
resent an effort to conceal a substantive harm that has occurred.
The structure of a typical guideline for a regulatory offense provides a low base
offense level (e.g., 6) aimed at the first type of recordkeeping or reporting offense. Specific offense characteristics designed to reflect substantive harms that do occur in respect to some regulatory offenses, or that are likely to occur, increase the offense level.
A specific offense characteristic also provides that a recordkeeping or reporting offense
that conceals a substantive offense will have the same offense level as the substantive
offense.
(g) Sentencing Ranges.
,QGHWHUPLQLQJWKHDSSURSULDWHVHQWHQFLQJUDQJHVIRUHDFKRIIHQVHWKH&RPPLVVLRQ
estimated the average sentences served within each category under the pre-guidelines
VHQWHQFLQJV\VWHP,WDOVRH[DPLQHGWKHVHQWHQFHVVSHFLILHGLQIHGHUDOVWDWXWHVLQWKH
parole guidelines, and in other relevant, analogous sources. The Commission’s SupplePHQWDU\5HSRUWRQWKH,QLWLDO6HQWHQFLQJ*XLGHOLQHV  FRQWDLQVDFRPSDULVRQEH
tween estimates of pre-guidelines sentencing practice and sentences under the guidelines.
:KLOHWKH&RPPLVVLRQKDVQRWFRQVLGHUHGLWVHOIERXQGE\SUH-guidelines sentencing
practice, it has not attempted to develop an entirely new system of sentencing on the
basis of theory alone. Guideline sentences, in many instances, will approximate average
pre-guidelines practice and adherence to the guidelines will help to eliminate wide disSDULW\)RUH[DPSOHZKHUHDKLJKSHUFHQWDJHRISHUVRQVUHFHLYHGSUREDWLRQXQGHUSUHguidelines practice, a guideline may include one or more specific offense characteristics
in an effort to distinguish those types of defendants who received probation from those
ZKRUHFHLYHGPRUHVHYHUHVHQWHQFHV,QVRPHLQVWDQFHVVKRUWVHQWHQFHVRILQFDUFHUDWLRQ
for all offenders in a category have been substituted for a pre-guidelines sentencing
practice of very wide variability in which some defendants received probation while others received several years in prison for the same offense. Moreover, inasmuch as those
who pleaded guilty under pre-guidelines practice often received lesser sentences, the
guidelines permit the court to impose lesser sentences on those defendants who accept
UHVSRQVLELOLW\IRUWKHLUPLVFRQGXFW)RUGHIHQGDQWVZKRSURYLGHVXEVWDQWLDODVVLVWDQFH
to the government in the investigation or prosecution of others, a downward departure
may be warranted.
The Commission has also examined its sentencing ranges in light of their likely
impact upon prison population. Specific legislation, such as the Anti-Drug Abuse Act
of 1986 and the career offender provisions of the Sentencing Reform Act of 1984
(28 U.S.C. § 994(h)), required the Commission to promulgate guidelines that will lead
to substantial prison population increases. These increases will occur irrespective of the
guidelines. The guidelines themselves, insofar as they reflect policy decisions made by
the Commission (rather than legislated mandatory minimum or career offender senWHQFHV DUHSURMHFWHGWROHDGWRDQLQFUHDVHLQSULVRQSRSXODWLRQWKDWFRPSXWHUPRGHOV
produced by the Commission and the Bureau of Prisons in 1987, estimated at approximately 10 percent over a period of ten years.

Guidelines Manual (November 1, 2018   ɠ  11

APPENDIX, p. 43 of 51

Ch. 1 Pt. A
(h) The Sentencing Table.
The Commission has established a sentencing table that for technical and practical
reasons contains 43 levels. Each level in the table prescribes ranges that overlap with
the ranges in the preceding and succeeding levels. By overlapping the ranges, the table
should discourage unnecessary litigation. Both prosecution and defense will realize that
the difference between one level and another will not necessarily make a difference in
the sentence that the court imposes. Thus, little purpose will be served in protracted
litigation trying to determine, for example, whether $10,000 or $11,000 was obtained as
a result of a fraud. At the same time, the levels work to increase a sentence proportionately. A change of six levels roughly doubles the sentence irrespective of the level at
which one starts. The guidelines, in keeping with the statutory requirement that the
maximum of any range cannot exceed the minimum by more than the greater of 25 percent or six months (28 U.S.C. § 994(b)(2)), permit courts to exercise the greatest permissible range of sentencing discretion. The table overlaps offense levels meaningfully,
works proportionately, and at the same time preserves the maximum degree of allowable discretion for the court within each level.
Similarly, many of the individual guidelines refer to tables that correlate amounts
of money with offense levels. These tables often have many rather than a few levels.
$JDLQ WKH UHDVRQ LV WR PLQLPL]H WKH OLNHOLKRRG RI XQQHFHVVDU\ OLWLJDWLRQ ,I D PRQH\
table were to make only a few distinctions, each distinction would become more important and litigation over which category an offender fell within would become more
likeO\:KHUHDWDEOHKDVPDQ\VPDOOPRQHWDU\GLVWLQFWLRQVLWPLQLPL]HVWKHOLNHOLKRRG
of litigation because the precise amount of money involved is of considerably less importance.

5.

A Concluding Note

The Commission emphasizes that it drafted the initial guidelines with considerable
FDXWLRQ,WH[DPLQHGWKHPDQ\KXQGUHGVRIFULPLQDOVWDWXWHVLQWKH8QLWHG6WDWHV&RGH
,W EHJDQ ZLWK WKRVH WKDW ZHUH WKH EDVLV IRU D VLJQLILFDQW QXPEHU RI SURVHFXWLRQV DQG
VRXJKWWRSODFHWKHPLQDUDWLRQDORUGHU,WGHYHORSHG additional distinctions relevant to
the application of these provisions and it applied sentencing ranges to each resulting
FDWHJRU\,QGRLQJVRLWUHOLHGXSRQSUH-guidelines sentencing practice as revealed by its
own statistical analyses based on summary reports of some 40,000 convictions, a sample
RIDXJPHQWHGSUHVHQWHQFHUHSRUWVWKHSDUROHJXLGHOLQHVDQGSROLF\MXGJPHQWV
The Commission recognizes that some will criticize this approach as overly cautious, as representing too little a departure from pre-guidelines sentencing practice. Yet,
it will cure wide disparity. The Commission is a permanent body that can amend the
guidelines each year. Although the data available to it, like all data, are imperfect, experience with the guidelines will lead to additional information and provide a firm empirical basis for consideration of revisions.

12 ɠ  *XLGHOLQHV0DQXDO 1RYHPEHU8)

APPENDIX, p. 44 of 51

PART B ― GENERAL APPLICATION PRINCIPLES
§1B1.1. Application Instructions
(a) The court shall determine the kinds of sentence and the guideline range as
set forth in the guidelines (see 18 U.S.C. § 3553(a)(4)) by applying the provisions of this manual in the following order, except as specifically directed:
(1) Determine, pursuant to §1B1.2 (Applicable Guidelines), the offense
guideline section from Chapter Two (Offense Conduct) applicable to
the offense of conviction. See §1B1.2.
(2) Determine the base offense level and apply any appropriate specific
offense characteristics, cross references, and special instructions contained in the particular guideline in Chapter Two in the order listed.
(3) Apply the adjustments as appropriate related to victim, role, and obstruction of justice from Parts A, B, and C of Chapter Three.
(4) If there are multiple counts of conviction, repeat steps (1) through (3)
for each count. Apply Part D of Chapter Three to group the various
counts and adjust the offense level accordingly.
(5) Apply the adjustment as appropriate for the defendant’s acceptance
of responsibility from Part E of Chapter Three.
(6) Determine the defendant’s criminal history category as specified in
Part A of Chapter Four. Determine from Part B of Chapter Four any
other applicable adjustments.
(7) Determine the guideline range in Part A of Chapter Five that corresponds to the offense level and criminal history category determined
above.
(8) For the particular guideline range, determine from Parts B through G
of Chapter Five the sentencing requirements and options related to
probation, imprisonment, supervision conditions, fines, and restitution.
(b) The court shall then consider Parts H and K of Chapter Five, Specific Offender Characteristics and Departures, and any other policy statements or
commentary in the guidelines that might warrant consideration in imposing sentence. See 18 U.S.C. § 3553(a)(5).

APPENDIX, p. 45 of 51

(c)

The court shall then consider the applicable factors in 18 U.S.C. § 3553(a)
taken as a whole. See 18 U.S.C. § 3553(a).

Application Notes:
1.

Commentary

The following are definitions of terms that are used frequently in the guidelines and are of general applicability (except to the extent expressly modified in respect to a particular guideline or
policy statement):
(A)

“Abducted” means that a victim was forced to accompany an offender to a different location. For example, a bank robber’s forcing a bank teller from the bank into a getaway car
would constitute an abduction.

(B)

“Bodily injury” means any significant injury; e.g., an injury that is painful and obvious, or
is of a type for which medical attention ordinarily would be sought.

(C)

“Brandished” with reference to a dangerous weapon (including a firearm) means that all
or part of the weapon was displayed, or the presence of the weapon was otherwise made
known to another person, in order to intimidate that person, regardless of whether the
weapon was directly visible to that person. Accordingly, although the dangerous weapon
does not have to be directly visible, the weapon must be present.

(D)

“Court protection order” means “protection order” as defined by 18 U.S.C. § 2266(5) and
consistent with 18 U.S.C. § 2265(b).

(E)

“Dangerous weapon” means (i) an instrument capable of inflicting death or serious bodily
injury; or (ii) an object that is not an instrument capable of inflicting death or serious bodily
injury but (I) closely resembles such an instrument; or (II) the defendant used the object in
a manner that created the impression that the object was such an instrument (e.g. a defendant wrapped a hand in a towel during a bank robbery to create the appearance of a
gun).

(F)

“Departure” means (i) for purposes other than those specified in subdivision (ii), imposition
of a sentence outside the applicable guideline range or of a sentence that is otherwise different from the guideline sentence; and (ii) for purposes of §4A1.3 (Departures Based on
Inadequacy of Criminal History Category), assignment of a criminal history category other
than the otherwise applicable criminal history category, in order to effect a sentence outside
the applicable guideline range. “Depart” means grant a departure.
“Downward departure” means departure that effects a sentence less than a sentence that
could be imposed under the applicable guideline range or a sentence that is otherwise less
than the guideline sentence. “Depart downward” means grant a downward departure.
“Upward departure” means departure that effects a sentence greater than a sentence
that could be imposed under the applicable guideline range or a sentence that is otherwise
greater than the guideline sentence. “Depart upward” means grant an upward departure.

(G)

“Destructive device” means any article described in 26 U.S.C. § 5845(f) (including an explosive, incendiary, or poison gas — (i) bomb, (ii) grenade, (iii) rocket having a propellant
charge of more than four ounces, (iv) missile having an explosive or incendiary charge of
more than one-quarter ounce, (v) mine, or (vi) device similar to any of the devices described
in the preceding clauses).

APPENDIX, p. 46 of 51

PART E ― ACCEPTANCE OF RESPONSIBILITY
§3E1.1.

Acceptance of Responsibility
(a) If the defendant clearly demonstrates acceptance of responsibility for his
offense, decrease the offense level by 2 levels.
(b) If the defendant qualifies for a decrease under subsection (a), the offense
level determined prior to the operation of subsection (a) is level 16 or
greater, and upon motion of the government stating that the defendant has
assisted authorities in the investigation or prosecution of his own misconduct by timely notifying authorities of his intention to enter a plea of guilty,
thereby permitting the government to avoid preparing for trial and permitting the government and the court to allocate their resources efficiently, decrease the offense level by 1 additional level.
Commentary

Application Notes:
1.

In determining whether a defendant qualifies under subsection (a), appropriate considerations
include, but are not limited to, the following:
(A)

truthfully admitting the conduct comprising the offense(s) of conviction, and truthfully admitting or not falsely denying any additional relevant conduct for which the defendant is
accountable under §1B1.3 (Relevant Conduct). Note that a defendant is not required to volunteer, or affirmatively admit, relevant conduct beyond the offense of conviction in order to
obtain a reduction under subsection (a). A defendant may remain silent in respect to relevant conduct beyond the offense of conviction without affecting his ability to obtain a reduction under this subsection. A defendant who falsely denies, or frivolously contests, relevant conduct that the court determines to be true has acted in a manner inconsistent with
acceptance of responsibility, but the fact that a defendant’s challenge is unsuccessful does
not necessarily establish that it was either a false denial or frivolous;

(B)

voluntary termination or withdrawal from criminal conduct or associations;

(C)

voluntary payment of restitution prior to adjudication of guilt;

(D)

voluntary surrender to authorities promptly after commission of the offense;

(E)

voluntary assistance to authorities in the recovery of the fruits and instrumentalities of the
offense;

(F)

voluntary resignation from the office or position held during the commission of the offense;

(G)

post-offense rehabilitative efforts (e.g., counseling or drug treatment); and

(H)

the timeliness of the defendant’s conduct in manifesting the acceptance of responsibility.

APPENDIX, p. 47 of 51

2.

This adjustment is not intended to apply to a defendant who puts the government to its burden
of proof at trial by denying the essential factual elements of guilt, is convicted, and only then
admits guilt and expresses remorse. Conviction by trial, however, does not automatically preclude a defendant from consideration for such a reduction. In rare situations a defendant may
clearly demonstrate an acceptance of responsibility for his criminal conduct even though he exercises his constitutional right to a trial. This may occur, for example, where a defendant goes to
trial to assert and preserve issues that do not relate to factual guilt (e.g., to make a constitutional
challenge to a statute or a challenge to the applicability of a statute to his conduct). In each such
instance, however, a determination that a defendant has accepted responsibility will be based
primarily upon pre-trial statements and conduct.

3.

Entry of a plea of guilty prior to the commencement of trial combined with truthfully admitting
the conduct comprising the offense of conviction, and truthfully admitting or not falsely denying
any additional relevant conduct for which he is accountable under §1B1.3 (Relevant Conduct)
(see Application Note 1(A)), will constitute significant evidence of acceptance of responsibility for
the purposes of subsection (a). However, this evidence may be outweighed by conduct of the defendant that is inconsistent with such acceptance of responsibility. A defendant who enters a
guilty plea is not entitled to an adjustment under this section as a matter of right.

4.

Conduct resulting in an enhancement under §3C1.1 (Obstructing or Impeding the Administration of Justice) ordinarily indicates that the defendant has not accepted responsibility for his
criminal conduct. There may, however, be extraordinary cases in which adjustments under both
§§3C1.1 and 3E1.1 may apply.

5.

The sentencing judge is in a unique position to evaluate a defendant’s acceptance of responsibility. For this reason, the determination of the sentencing judge is entitled to great deference on
review.

6.

Subsection (a) provides a 2-level decrease in offense level. Subsection (b) provides an additional
1-level decrease in offense level for a defendant at offense level 16 or greater prior to the operation
of subsection (a) who both qualifies for a decrease under subsection (a) and who has assisted
authorities in the investigation or prosecution of his own misconduct by taking the steps set forth
in subsection (b). The timeliness of the defendant’s acceptance of responsibility is a consideration
under both subsections, and is context specific. In general, the conduct qualifying for a decrease
in offense level under subsection (b) will occur particularly early in the case. For example, to
qualify under subsection (b), the defendant must have notified authorities of his intention to
enter a plea of guilty at a sufficiently early point in the process so that the government may avoid
preparing for trial and the court may schedule its calendar efficiently.
Because the Government is in the best position to determine whether the defendant has assisted
authorities in a manner that avoids preparing for trial, an adjustment under subsection (b) may
only be granted upon a formal motion by the Government at the time of sentencing. See section 401(g)(2)(B) of Public Law 108–21. The government should not withhold such a motion based
on interests not identified in §3E1.1, such as whether the defendant agrees to waive his or her
right to appeal.
If the government files such a motion, and the court in deciding whether to grant the motion also
determines that the defendant has assisted authorities in the investigation or prosecution of his
own misconduct by timely notifying authorities of his intention to enter a plea of guilty, thereby
permitting the government to avoid preparing for trial and permitting the government and the
court to allocate their resources efficiently, the court should grant the motion.

Background: The reduction of offense level provided by this section recognizes legitimate societal
interests. For several reasons, a defendant who clearly demonstrates acceptance of responsibility for

APPENDIX, p. 48 of 51

his offense by taking, in a timely fashion, the actions listed above (or some equivalent action) is appropriately given a lower offense level than a defendant who has not demonstrated acceptance of responsibility.
Subsection (a) provides a 2-level decrease in offense level. Subsection (b) provides an additional
1-level decrease for a defendant at offense level 16 or greater prior to operation of subsection (a) who
both qualifies for a decrease under subsection (a) and has assisted authorities in the investigation or
prosecution of his own misconduct by taking the steps specified in subsection (b). Such a defendant
has accepted responsibility in a way that ensures the certainty of his just punishment in a timely
manner, thereby appropriately meriting an additional reduction. Subsection (b) does not apply, however, to a defendant whose offense level is level 15 or lower prior to application of subsection (a). At
offense level 15 or lower, the reduction in the guideline range provided by a 2-level decrease in offense
level under subsection (a) (which is a greater proportional reduction in the guideline range than at
higher offense levels due to the structure of the Sentencing Table) is adequate for the court to take
into account the factors set forth in subsection (b) within the applicable guideline range.
Section 401(g) of Public Law 108–21 directly amended subsection (b), Application Note 6 (including adding the first sentence of the second paragraph of that application note), and the Background
Commentary, effective April 30, 2003.
Historical
Note

Effective November 1, 1987. Amended effective January 15, 1988 (amendment 46); November 1, 1989
(amendment 258); November 1, 1990 (amendment 351); November 1, 1992 (amendment 459); April 30, 2003
(amendment 649); November 1, 2010 (amendments 746 and 747); November 1, 2013 (amendment 775); November 1, 2018 (amendment 810).

APPENDIX, p. 49 of 51

CHAPTER FIVE
DETERMINING THE SENTENCE
Introductory Commentary
For certain categories of offenses and offenders, the guidelines permit the court to impose either
imprisonment or some other sanction or combination of sanctions. In determining the type of sentence
to impose, the sentencing judge should consider the nature and seriousness of the conduct, the statutory purposes of sentencing, and the pertinent offender characteristics. A sentence is within the guidelines if it complies with each applicable section of this chapter. The court should impose a sentence
sufficient, but not greater than necessary, to comply with the statutory purposes of sentencing.
18 U.S.C. § 3553(a).
Historical
Note

Effective November 1, 1987.

PART A ― SENTENCING TABLE
The Sentencing Table used to determine the guideline range follows:

APPENDIX, p. 50 of 51

SENTENCING TABLE
(in months of imprisonment)
Offense
Level
1
2
3
4
Zone A
5
6
7
8
9
Zone B
10
11
12
Zone C
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
Zone D
29
30
31
32
33
34
35
36
37
38
39
40
41
42
43

I

Criminal History Category (Criminal History Points)
II

III

IV

V

VI

(0 or 1)

(2 or 3)

(4, 5, 6)

(7, 8, 9)

(10, 11, 12)

(13 or more)

0–6
0–6
0–6
0–6
0–6
0–6
0–6
0–6
4–10
6–12
8–14
10–16
12–18
15–21
18–24
21–27
24–30
27–33
30–37
33–41
37–46
41–51
46–57
51–63
57–71
63–78
70–87
78–97
87–108
97–121
108–135
121–151
135–168
151–188
168–210
188–235
210–262
235–293
262–327
292–365
324–405
360–life
life

0–6
0–6
0–6
0–6
0–6
1–7
2–8
4–10
6–12
8–14
10–16
12–18
15–21
18–24
21–27
24–30
27–33
30–37
33–41
37–46
41–51
46–57
51–63
57–71
63–78
70–87
78–97
87–108
97–121
108–135
121–151
135–168
151–188
168–210
188–235
210–262
235–293
262–327
292–365
324–405
360–life
360–life
life

0–6
0–6
0–6
0–6
1–7
2–8
4–10
6–12
8–14
10–16
12–18
15–21
18–24
21–27
24–30
27–33
30–37
33–41
37–46
41–51
46–57
51–63
57–71
63–78
70–87
78–97
87–108
97–121
108–135
121–151
135–168
151–188
168–210
188–235
210–262
235–293
262–327
292–365
324–405
360–life
360–life
360–life
life

0–6
0–6
0–6
2–8
4–10
6–12
8–14
10–16
12–18
15–21
18–24
21–27
24–30
27–33
30–37
33–41
37–46
41–51
46–57
51–63
57–71
63–78
70–87
77–96
84–105
92–115
100–125
110–137
121–151
135–168
151–188
168–210
188–235
210–262
235–293
262–327
292–365
324–405
360–life
360–life
360–life
360–life
life

0–6
0–6
2–8
4–10
6–12
9–15
12–18
15–21
18–24
21–27
24–30
27–33
30–37
33–41
37–46
41–51
46–57
51–63
57–71
63–78
70–87
77–96
84–105
92–115
100–125
110–137
120–150
130–162
140–175
151–188
168–210
188–235
210–262
235–293
262–327
292–365
324–405
360–life
360–life
360–life
360–life
360–life
life

0–6
1–7
3–9
6–12
9–15
12–18
15–21
18–24
21–27
24–30
27–33
30–37
33–41
37–46
41–51
46–57
51–63
57–71
63–78
70–87
77–96
84–105
92–115
100–125
110–137
120–150
130–162
140–175
151–188
168–210
188–235
210–262
235–293
262–327
292–365
324–405
360–life
360–life
360–life
360–life
360–life
360–life
life

APPENDIX, p. 51 of 51

Commentary to Sentencing Table
Application Notes:
1.

The Offense Level (1–43) forms the vertical axis of the Sentencing Table. The Criminal History
Category (I–VI) forms the horizontal axis of the Table. The intersection of the Offense Level and
Criminal History Category displays the Guideline Range in months of imprisonment. “Life”
means life imprisonment. For example, the guideline range applicable to a defendant with an
Offense Level of 15 and a Criminal History Category of III is 24–30 months of imprisonment.

2.

In rare cases, a total offense level of less than 1 or more than 43 may result from application of
the guidelines. A total offense level of less than 1 is to be treated as an offense level of 1. An
offense level of more than 43 is to be treated as an offense level of 43.

3.

The Criminal History Category is determined by the total criminal history points from Chapter Four, Part A, except as provided in §§4B1.1 (Career Offender) and 4B1.4 (Armed Career
Criminal). The total criminal history points associated with each Criminal History Category are
shown under each Criminal History Category in the Sentencing Table.
Historical
Note

Effective November 1, 1987. Amended effective November 1, 1989 (amendment 270); November 1, 1991
(amendment 418); November 1, 1992 (amendment 462); November 1, 2010 (amendment 738).

APPENDIX, p. 52 of 51

